                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A11030021                                                                          Page 1 of 1



                  We reviewed an allegation of falsification and fabrication of data by a former graduate
                                                                                   2
          student (Student) 1 whose work was supported in part by an NSF award to PI 3 at another U.S. federal
          agency (Agency). 4 The data, which others in the same lab have been unable to reproduce, appear in
          the Student's dissertation and resulting publications. At the time of the alleged acts, the Student was
          enrolled in a graduate program at a foreign university (University) 5 with the PI at the Agency serving
          as one of his dissertation advisors. The published results acknowledged NSF support as well as a
          grant from the foreign governrnent. 6

                   We referred the allegation to the Agency requesting an inquiry and learned that its PI had not
          retained any of the underlying data for the allegedly falsified or fabricated work. The allegation
          arose after the record retention requirements in the award agreement had expired. The Agency took
          steps to obtain the data from the University, which declined to provide the data and asked that a
          formal allegation of research misconduct be submitted with supporting documentation. The Agency
          ultimately received only a summary spreadsheet from the Student, now on the faculty at another
          institution. 7 The Agency found there was insufficient evidence to move forward given its inability to
          review the raw data. The raw data were necessary to enable it either to proceed with its inquiry or to
          submit a formal allegation to the University with the level of detail the University required.
          Furthermore, it was unclear whether the privacy laws applicable to the University would prevent it
          from sharing the results of any investigation it conducted.

                  We reviewed the information the Agency obtained and concurred with its assessment that
          absent the raw data, there is insufficient evidence to warrant further investigation.

                    Accordingly, this case is closed.




NSF OlG Form 2 ( 11/02)
